Semiannual Report to the Congress
   Office of the Inspector General
                   September 30, 2010
The above images are overlaid on the cover to show the building site prior to construction of the Library’s Thomas Jefferson
Building and the building’s proximity to the U.S. Capitol. The top image, taken from a damaged gelatin silver photograph
shows the excavation site while the bottom image, from a cyanotype photographic print, depicts cranes setting in place
structural stone.


Images in this report document the creation of the Library of Congress in 1800 through its first century when it moved in
1897 from the U.S. Capitol Building to what is known today as the Thomas Jefferson Building. The images in this report
also depict creation of some of the architectural detail and vintage collections material.




All Photographs in this Publication Are of the Thomas Jefferson Building, Rare Book Collections, and Early Depictions of
the U.S. Capitol Grounds. Most of these images are from the Prints and Photographs and Geography and Maps Divisions.

Above Upper: Panoramic Photograph of the Excavation Site for the Library of Congress, July 8, 1888 by Levin C. Handy.
Above Lower: Panoramic Photograph of the Construction of the Library of Congress, June 23, 1890 by Levin C. Handy.

Cover Design: Jennifer R. Bosch, Office of the Inspector General
 September 30, 2010


A Message From the Inspector General
In the last six months we prepared reports on the utilization of multi-function devices, the book conveyor
renovation project, and employment incentives and flexibilities. We also issued reports on contract
award and termination actions. In continuing our focus on security of the Library’s collections, we also
completed an inventory baseline sampling of rare books and are continuing the next period with a baseline
inventory and collections security review in the Music Division and a collections security review in the
Law Library. Investigations during the period focused on conflicts of interest, pornography, misuse of
Library property and time, and fraud in the surplus books program.


This period, our reviews identified more than $8 million in funds to be put to better use and more
than $300,000 in unallowable costs. We are pleased to report that the Library implemented 31 of our
recommendations; however, we disagree with the Library’s decision not to implement recommendations
that would bring efficiency to the hiring process.


We are also pleased to report awards for meritorious service and the highest standards of professional law
enforcement bestowed on two of our investigators by the Justice Department, and a ‘clean’ opinion on a
peer review of our audit operations.


We appreciate the cooperative spirit Library staff have shown during our reviews.


Our reports are available online at www.loc.gov/about/oig.




Karl W. Schornagel
Inspector General
          Table of Contents
            In Summary.......................................................................................................................................        1
            Profiles..............................................................................................................................................   5

            Audits, Surveys, and Reviews......................................................................................................                       9
               Rare Book and Special Collections...................................................................................................                  9
                   Book Conveyor System..................................................................................................................            10
                   Review of Underutilized Multifunction Devices.....................................................................................                11
                   Termination Settlement Proposal of Macfadden and Associates, Inc......................................................                            12
                   Employment Incentives and Flexibilities...............................................................................................            13
                   Sole Source Award to Power Tech, Inc...............................................................................................               15
                   Open World Leadership Fiscal Year 2009 Financial Statements.............................................................                          16
                   National Digital Information Infrastructure and Preservation Program..................................................                            17
            Investigations.....................................................................................................................................      19
                   Significant Criminal and Administrative Investigations...........................................................................                 20
                   Follow-up on Investigative Issues from Prior Semiannual Reports.........................................................                          22
            Other Activities.................................................................................................................................        24
                   Investigators Receive Justice Department Law Enforcement Awards.............................................................                      24
                   Responses to Congressional Inquiries..............................................................................................                24
                   Research Assistance to OWLC on Gifting Policy.........................................................................................            25
                   Committee to Select Single Financial Statement Auditor...............................................................................             25
                   Assistant Inspector General for Audits Panelist in National Conference.....................................................                       26
            Peer Reviews.......................................................................................................................................      27
                   Peer Reviews of the Library of Congress Office of the Inspector General.....................................................                      27
                   Peer Reviews of Other Offices of Inspector General...................................................................................             27
            Review of Legislation and Regulations........................................................................................                            28
            Unimplemented Recommendations.................................................................................................                           29
            Implemented Recommendations...................................................................................................                           35
            Funds Questioned or Put to Better Use ..................................................................................                                 39
            Instances Where Information or Assistance Requests Were Refused..............................                                                            40
            Status of Recommendations Without Management Decisions...........................................                                                        40
            Significant Revised Management Decisions............................................................................                                     40
            Significant Management Decisions With Which OIG Disagrees........................................                                                        40
            Follow-Up on Prior Period Recommendations........................................................................                                        40
            Organizational Chart.................................................................................................................                    41
            Hotline Information..................................................................................................Inside Rear Cover

Left: Appropriations Act Creating the Library of Congress in the U.S. Capitol Building.
Originated on December 2, 1799, Signed by President John Adams on April 24, 1800.
                                               In Summary . . .
                                               Audits, Surveys, and Reviews

                                               We conducted a review of the Library’s acquisition and utilization of multi-
                                               function devices (copy/print/scan/fax) to determine the financial impact of
                                               leasing networkable machines that were not networked, but used instead as
                                               basic copiers. We determined that the Library spent at least $563,000 more
                                               than needed on a five-year contract. Some of the cost was attributable to not
                                               meeting minimum usage requirements.


                                               A review of the book conveyor renova-
                                               tion project determined that the plan
                                               to spend approximately $16 million to
                                               upgrade the nearly 50-year-old system
                                               in the Library’s three Capitol Hill build-
                                               ings was not justified. The government
                                               would save between $7.8 and $10.1
                                               million by abandoning the system and
                                               manually transporting books and other
                                               materials between Library buildings.


                                               We looked at the use of Employment In-
                                               centives and Flexibilities and found that
                                               many Library managers were unaware of
                                               the tools available to attract and retain
                                               the best people. We also found a need to
                                               better understand the financial implica-
                                               tions of staff turnover.


                                               For the first time, we conducted a limited
                                               rare book inventory to determine the ex-
                                               istence and condition of a random sam-
                                               ple of the Library’s 800,000 rare book
                                               holdings. All items were located. This
                                               baseline review will serve as a benchmark
                                               for future statistical sampling.


                                               Finally, we evaluated a claim for contract termination damages and determined
                                               that about $305,000 of the claimant’s $315,000 damages were not allowable.


                                               These and other audits, surveys, and reviews are discussed further beginning
                                               on page 9.
Center: Design of the Library of Congress in
the North Wing of the U.S. Capitol Building,
By Benjamin Henry Latrobe, 1808.

Above: Detail of Book Stacks in North Wing
of the U.S. Capitol Building.

  1 • Semiannual Report to the Congress
Investigations

We investigated three conflict of interest and misuse of Library property and
time cases. Two of those cases are currently in the Library’s administrative ac-
tion process. Library management is also taking administrative action on a
case we investigated involving misuse of a Library computer.


                                    We determined that a Library employee
                                    was using a reading room computer to
                                    access pornography. In another case, we
                                    determined that a Library patron used a
                                    reading room computer to communicate
                                    threats.


                                    In an investigation involving Surplus
                                    Books Program fraud, we determined that
                                    a selector attempted to profit from books
                                    he had obtained on behalf of two univer-
                                    sities. Our investigators recovered more
                                    than 500 Library books.


                                    We observed inconsistent exit inspections
                                    by U.S. Capitol Police (Capitol Police)
                                    personnel posted at Library exits, and we
                                    referred the matter to the Capitol Police
                                    Inspector General.


                                    These and other cases are discussed fur-
                                    ther beginning on page 20.



                                    Other Activities

                                    Two Office of the Inspector General
                                    (OIG) special agents were recognized
with Investigations Awards by the U.S. Attorney for the District of Columbia
for meritorious service and the highest standards of professional law enforce-
ment in the pursuit of justice. Quality OIG work was also demonstrated in
receiving an unqualified (clean) opinion resulting from a peer review of our
audit operations from the Peace Corps Inspector General.




                                                                       Semiannual Report to the Congress • 2
                                                   The OIG responded to a request from Representative Darrell Issa about infor-
                                                   mation on unimplemented recommendations and ideas to improve legislation
                                                   concerning federal Inspectors General. In addition to the status of our recom-
                                                   mendations, we provided comments on improving the Library of Congress In-
                                                   spector General Act of 2005 and legislation of other statutory legislative branch
                                                   Inspectors General. We also responded to a request from Senators Charles
                                                   Grassley and Tom Coburn about interference with OIG activities.


                                                   The Assistant Inspector General for Audits participated as a conference panelist
                                                   at the Joint Annual Meeting of the Council of State Archivists, the National
                                                   Association of Government Archives and Records Administrators, and the So-
                                                   ciety of American Archivists on the topic of Security Challenges of the 21st
                                                   Century.


                                                   These and other activities are described further beginning on page 24.



                                                   Audits, Surveys, and Reviews in Progress

                                                   Our current projects include a review of the telework program at the Library.
                                                   Given the increased emphasis on “greening” the government, we undertook a
                                                   review of the Library’s telework program to determine if there are opportunities
                                                   to improve.


                                                   We are also following the executive branch’s recent focus on two topics of inter-
                                                   est: improper payments and managing a multi-sector workforce. The former
                                                   will be an ongoing, automated, and statistically-based review of Library pay-
                                                   ments to discover duplicate payments, fraudulent claims, or other improper
                                                   payments. The latter is a review of the Library’s employment picture to deter-
                                                   mine the optimal mix of government employees and contractors.


                                                   Following on the heels of fraud investigations related to the Surplus Books
                                                   Program, we have launched an audit of the program’s internal controls to help
                                                   prevent fraud in that program.


                                                   Finally, we are beginning a quantitative assessment of the Music Division’s col-
                                                   lections. This continues our thematic review of collections around the Library.
                                                   Most recently, we reviewed the Rare Book and Special Collections Division and
                                                   intend to continue reviewing new collections.




Right: Congressional Library, Main Hall of the U.S. Capitol
Looking South, Just Prior to Moving to the Thomas Jefferson
Building, Photograph by Jarvis E. Wilkins, c. May 29, 1897.

 3 • Semiannual Report to the Congress
                                                 Profiles
                                                 Library of Congress

                                                 The Library of Congress is the research and information arm of the United
                                                 States’s national legislature and the world’s largest storehouse of knowledge.
                                                 The Library seeks to spark imagination and creativity and to further human
                                                 understanding and wisdom through its collections, programs, and exhibitions.
                                                 The mission of the Library is to make its resources available and useful to the
                                                 Congress and the American people and to sustain and preserve a universal
                                                 collection of knowledge for future generations. The mission is accomplished
                                                 through more than 4,000 employees and contractors, and $800 million in
                                                 annual appropriated funds and other revenues.


                                                 Founded in 1800, the Library of Congress is also the nation’s oldest federal
                                                 cultural institution, holding more than 145 million items on 750 miles of
                                                                shelves. These items include books, manuscripts, maps, prints
                                                                and photographs, printed music, sound recordings and films, and
                                                                microforms. Half of the Library’s collections are from outside
                                                                the United States, representing 470 languages. In addition to
                                                                its three Capitol Hill buildings in Washington, DC, the Library
                                                                operates six overseas offices and stores collections material in
                                                                purpose-built facilities in Maryland and at the National Audio
                                                                Visual Conservation Center in Culpeper, Virginia. The Library
                                                                also holds an exponentially expanding collection of digital-born
                                                                content. Nearly 20 million original source items have been
                                                                digitized and are accessible at www.loc.gov.


                                                                In addition to the office of the Librarian of Congress, the
                                                                Library’s core organizational components are:


                                                    •	     Library Services,
                                                    •	     The U.S. Copyright Office,
                                                    •	     The Congressional Research Service,
                                                    •	     The Law Library,
                                                    •	     The Office of Strategic Initiatives, and
                                                    •	     The Office of Support Operations.


                                                 Library Services performs the traditional functions of a national library:
                                                 acquisitions, cataloging, preservation, and reference services for both digital
                                                 and conventional collections. It operates the National Library Service for the
                                                 Blind and Physically Handicapped and the American Folklife Center, among
                                                 others.
Above: Congressional Library Building,
Cellar, General Plan No. II, by Architect John
L. Smithmeyer, March 5, 1888.


 5 • Semiannual Report to the Congress
The Copyright Office administers the copyright laws of the nation and
registers copyrightable material; its deposits of intellectual material (books,
music, and movies) substantially contribute to the Library’s collections.
The Copyright Royalty Board collects and distributes $250 million in cable
television, satellite carrier, and Audio Home Recording Act compulsory license
funds to copyright holders.


The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, nonpartisan assessments of public-
policy issues and legislative options for addressing those issues.


The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international, and U.S. law
and other legal reference services.


The Office of Strategic Initiatives directs the national program for long-term
preservation of digital cultural assets, leads a collaborative institution-wide
effort to develop consolidated digital future plans, and integrates the delivery
of information technology services.


Last year, services provided by the Library included:


    •	    Fulfilling 590,000 reference requests,
    •	    Circulating 24 million disc, cassette, and Braille items to 		
	         more than 500,000 blind and physically handicapped patrons,
    •	    Registering 382,000 copyright claims,
    •	    Receiving 22,000 items daily and adding more than 10,000 		
	         items daily to its collections,
    •	    Preparing 1,500 legal research reports for Congress and other 		
	         agencies, and
    •	    Maintaining more than 7,000 reports on legislative issues and 		
	         preparing more than 2,500 tailored analyses.


The Library of Congress also recorded 81 million visits and 630 million page-
views of its primary source files on its website, and received 1.75 million on-
site visitors.




                                                                       Semiannual Report to the Congress • 6
                  Office of the Inspector General

                  The establishment of statutory federal Inspectors General
                  began in 1978 to empower independent audit and investigative
                  organizations to focus on fraud, waste, and abuse within federal
                  agencies. Initially, Inspectors General were established in only
                  a few departments. Additional Inspectors General were created
                  over the years.


                  The Library of Congress Office of the Inspector General (OIG)
                  was established in 1988 as a non-statutory office deriving its
                  authority from the Librarian of Congress. The OIG became
                  statutory with the passage of the Library of Congress Inspector
                  General Act of 2005, with a mandate to:


                      •	   Conduct and supervise audits and investigations
                  	        relating to the Library of Congress,
                      •	   Lead, coordinate, and recommend policies to 		
                  	        promote economy, efficiency, and effectiveness, and
                      •	   Keep the Librarian of Congress and the 		
                  	        Congress fully and currently informed about
                  	        problems and deficiencies relating to the
                  	        administration and operations of the Library 		
                  	        of Congress.


                  The OIG is a member of the Council of the Inspectors General
                  on Integrity and Efficiency (CIGIE), a unified council of all
                  federal statutory Inspectors General, and serves on the council’s
                  investigations committee.


                  This Semiannual Report to the Congress is a part of the OIG’s
                  statutory reporting requirement and is organized to address the
                  major functions of the office including:


                      •	   Significant audits, investigations, and other reviews 	
                  	        and activities of the OIG,
                      •	   Review of legislation and regulations affecting the 	
                  	        Library,
                      •	   Library decisions on OIG recommendations and the 	
                  	        status of implementation, along with any resulting 	
                  	        monetary benefits.




7 • Semiannual Report to the Congress
Audits are in-depth reviews that are normally planned annually.
Most OIG audits address the efficiency, effectiveness, and
economy of the Library’s programs, activities, and functions;
provide information to responsible parties to improve public
accountability; facilitate oversight and decision making; and
initiate corrective action as needed.


Some audits address whether financial statements fairly present
financial positions, results of operations, and cash flows in
conformity with generally accepted accounting principles.
They also assess whether an entity has adequate internal control
systems and complies with applicable laws and regulations. The
OIG also performs related types of reviews such as inspections
and attestations.   Occasionally, the OIG provides nonaudit
services, which are equivalent to consulting services in the
private sector.


Investigations are typically based on alleged or suspected
wrongdoing by agency employees, contractors, recipients of
financial assistance, and others responsible for handling federal
resources. Violations of Library regulations or fraud committed
against the Library can result in administrative sanctions and
criminal or civil prosecution. Contact information for the OIG
Hotline is located on the inside rear cover of this report.


Our staff is educated and certified in various disciplines. We
are, collectively, four certified public accountants (CPA), three
attorneys, two certified internal auditors (CIA), two certified
information systems auditors (CISA), three special agents, two
investigators, a Master of Library Science, and other highly
qualified staff.


OIG reports are available at www.loc.gov/about/oig.




                                   Center: Plan for Extending the U. S. Capitol
                                   Grounds, by Architect John Fraser, 1874.


                                        Semiannual Report to the Congress • 8
                                                 Audits, Surveys, and Reviews
                                                 Rare Book and Special Collections Division

                                                 Statistical Measure of the Condition
                                                 and Accountability of the RBSC Holdings

                                                 Attestation Report No. 2010-AT-101
                                                 August 2010

                                                 The Rare Book and Special Collections Division (RBSC) of Library Services
                                                 has custodial responsibility for more than 800,000 items ranging from the
                                                 medieval world, to Thomas Jefferson’s 1815 library, to modern-day acquisitions.
                                                 To measure the Library’s progress in maintaining and improving its collection
                                                                             controls in RBSC and all of the Library’s other
                                                                             special collections, we contracted in 1998 with the
                                                                             consulting firm KPMG to develop a methodology
                                                                             for statistically measuring changes in both the
                                                                             condition and accountability (i.e. ability to locate
                                                                             items) of a collection over time. Since then, we
                                                                             have applied this methodology in several of the
                                                                             Library’s collections.


                                                                             This first assessment performed in RBSC
                                                                             established the baseline for materials known to
                                                                             be held as of the date of our report. We plan
                                                                             to continue testing in RBSC periodically to
                                                                             reconfirm the existence of the baseline items and
                                                                             to assess any changes in their condition. While
                                                                             evaluating their condition, we also expanded our
                                                                             testing protocol by noting whether the test items
                                                                             had identification markings, and attempted to
                                                                             locate a random sample of items we chose from
                                                                             the RBSC shelflist (a sequential list of holdings).


                                                 Based on our testing, we projected that nearly 80 percent of RBSC’s collection
                                                 is in “good” condition or better. In addition, we confirmed that RBSC was
                                                 complying with the Library’s policy for marking rare materials. Markings are
                                                 important because it may be difficult to prove ownership in their absence.
                                                 To further improve control, we recommended that RBSC explore the costs
                                                 and benefits of using high-resolution photography to assist in proving Library
                                                 ownership of rare materials. Finally, we were able to physically locate 100
                                                 percent of randomly selected items chosen from the RBSC shelflist.


                                                 Management concurred with our recommendation.
Above: Construction in the Library of Congress
Showing Men Applying Marble to Brick Walls,
July 27, 1894.

  9 • Semiannual Report to the Congress
Library-Wide
Book Conveyor System

Audit Report No. 2010‐PA‐101
August 2010

In 1964, the Library of Congress installed a book conveyor system in the
Jefferson Building. In the ensuing years, two more book conveyors were
installed in the Adams and Madison Buildings, to provide the efficient and
timely transfer of books and other materials from the Library’s repositories to
staff and the public. However, over the years the system began to break down
and eventually proved unreliable.


In April 2006, the book conveyor began experiencing significant malfunctions.
The system became so unreliable that Library Services discontinued its use and
adopted a manual delivery system. The system was completely shut down
in February 2008. Over the next four years, the Architect of the Capitol,
responsible for the care and maintenance of the system, planned to award two
major contracts to design and renovate the existing book conveyor, based on
the Book Conveyor Integration and Upgrade Study completed in 2006. The
Library had not revisited its requirements since the 2006 study.


We conducted an audit survey of the book conveyor system upgrade project
to determine if a book conveyor system for the Library was still needed.
We concluded that plans to renovate the Library’s book conveyor system
were no longer justifiable. Specifically, we determined that constructing
and maintaining a new book conveyor system would be significantly more
costly than continuing to manually transport books and materials between
the Library’s buildings. Further, growing Internet access to many collection
materials and a reduced number of book and material requests have
substantially diminished the need for a book conveyor system.


We recommended that the Library reassess its plans to renovate the book
conveyor system and determine the most economical way to decommission it.


Management concurred with our recommendations.




                                                                       Semiannual Report to the Congress • 10
                                                       Library-Wide

                                                       Review of Underutilized
                                                       Multifunction Devices

                                                       Audit Report No. 2010-SP-101
                                                       April 2010

                                                       We conducted a review of the utilization of the Library’s multifunction devices
                                                       (MFDs). MFDs are office machines that combine two or more document
                                                       management functions, such as copying, scanning, printing, or faxing.
                                                       Because MFDs have enhanced features and services, they are generally more
                                                       expensive than standard copiers.


                                                       In October 2005, the Library entered into a five-year, $5.8 million contract
                                                       with a vendor for 234 MFDs and standard copiers for administrative, print
                                                       shop, and public use. The Library’s Information Technology Services (ITS)
                                                       and Integrated Support Services (ISS) developed plans to network the MFDs
                                                       to allow Library staff to use the enhanced features and services. However,
                                                       those plans were never implemented.


                                                       Because ITS and ISS did not successfully network the MFDs, the Library paid
                                                       for equipment and software that it did not fully use and for pages printed
                                                       (volume) allowances that exceeded actual usage. We estimated that the Library
                                                       paid at least $563,000 over the life of the contract for features and services
                                                       it did not use. We found several factors that contributed to the Library’s
                                                       unsuccessful efforts to network the MFDs including: (1) noncompliance with
                                                       the Library’s policies for IT security and system certification and accreditation
                                                       (C&A), (2) confusion over vendor requirements for C&A, and (3) attention
                                                       to other priorities at the expense of the MFD networking effort.


                                                       We recommended that ISS ensure that the cost structure for the next contract
                                                       provide more transparency. We also recommended that ITS and ISS properly
                                                       communicate security requirements to all stakeholders, and follow the Library’s
                                                       policies and best practices for system C&A. The current contract term ended
                                                       in September 2010 and ISS is in the selection process for a new contract.


                                                       ITS and ISS management agreed with our recommendations. However, ITS
                                                       disagreed with several points in our report.




Above: Rare Book Plate.
Opposite: Exterior Frieze Depicting the Completion Date of the
Thomas Jefferson Building. Photograph by Tara Logan.
11 • Semiannual Report to the Congress
Office of Contracts a n d
Grants Management

Review of the Termination Settlement
Proposal of Macfadden and Associates, Inc.

Audit Report No. 2010‐CA‐101
June 2010

In March 2009, the Library awarded a contract to Macfadden and Associates,
Inc. (contractor). The purpose of the contract was to digitally scan card
catalog files of the Library’s Collections and Services Directorate and transfer
the scanned images to the Library’s server. In August 2009, the Office of
Contracts and Grants Management (OCGM) terminated the contract after
receiving a protest to the contract award. In
September 2009, the contractor submitted
to OCGM a contract termination settlement
proposal for $315,404.


At the request of OCGM, we performed a
review of the contractor’s settlement proposal.
The purpose of our review was to provide
information to assist the Library’s contracting
officer in negotiating a contract settlement
with the contractor.      Our objectives were
to determine whether the proposal reflected
reliably computed totals for material, labor, and
overhead; allowable and reasonable incurred
contractor costs; and charges supported by
acceptable accounting evidence.


Based on applicable Federal Acquisition Regulations criteria, we determined
that $304,706 of the contractor’s total proposed settlement cost should be
disallowed. We discussed the results of our review with the contractor during
an exit conference in May 2010 and advised OCGM of our findings for use in
final settlement negotiations with the contractor.


Since the report, the contractor submitted to the Library a significantly
reduced termination proposal. The Library has not yet issued a final decision
on the claim.




                                                                       Semiannual Report to the Congress • 12
                                                         Human Resources Services

                                                         Employment Incentives and Flexibilities:
                                                         More Education and Communication Needed

                                                         Audit Report No. 2010‐PA‐103
                                                         July 2010

                                                         The Library’s two most significant assets are its collections and its human
                                                         capital. Without the work of almost 4,000 dedicated employees, the Library
                                                         could not fulfill its mission; our staff provides the nexus between more than
                                                         145 million collection items and 309 million
                                                         customers: the Congress and the American
                                                         people. As with all employers, the Library
                                                         compensates and motivates its staff in a
                                                         variety of ways.       Salary is clearly one–but
                                                         not the only–cornerstone of compensation.
                                                         There are a wide range of other incentives
                                                         and flexibilities available to the Library as it
                                                         competes with other employers to recruit,
                                                         hire, and retain individuals with strong,
                                                         modern-day skills, knowledge, and abilities.


                                                         We performed this audit to assess the Library’s
                                                         use and control of incentives and flexibilities
                                                         in two areas: recruitment and retention of
                                                         staff. We found that Library officials were
                                                         not fully aware of available hiring incentives
                                                         despite Human Resources Services (HRS)
                                                         efforts. One of the key factors for effectively
                                                         using employment flexibilities is to educate
                                                         managers and employees on the availability
                                                         and use of flexibilities.


                                                         Our survey revealed that:


                                                             •	       Nearly 50 percent of the Library’s managers are unfamiliar 		
                                                         	            with most recruitment incentives,
                                                             •	       63 percent are unsure if funding for incentives is included in 		
                                                         	            their organization’s budget, and
                                                             •	       85 percent do not make use of incentives when recruiting staff.


Center: Cover and Title Page to 1897 Guidebook Showing the
Printer Trademark of Fust and Schoeffer. The Mark is Located
on the Ceiling of the Entrance Pavilion of the Thomas Jefferson
Building, and is the Oldest (Dating from 1457) of Fifty-Six Printer
Marks Commemorated in Library of Congress Decorum.

 13 • Semiannual Report to the Congress
We attributed these results to: (1) ineffective communication by HRS, (2) a lack
of commitment by some managers to learn about human capital management,
and (3) the failure of senior officials to hold managers accountable for effective
human capital management.


Although HRS has taken several actions in recent years to improve
understanding about human capital flexibilities, among Library managers and
its own staffing specialists, more work is needed. We recommended that all
Library managers be required to attend HRS’ quarterly forums and complete
refresher training annually on material in the Supervisors Handbook. We also
                             recommended that HRS assign a point person
                              to be responsible for ensuring that members of
                              the Flexibilities Working Group pass the group’s
                              information on to managers.


                              In addition, we found that recruitment and
                              retention incentives are used slightly less by the
                              Library as compared to other federal agencies.
                              Library   officials   we    interviewed   indicated
                              that, for the most part, they do not have a
                              compelling need to offer employment incentives
                              because their organizations are not facing
                              significant recruitment and retention challenges.
                              Nonetheless, HRS should focus its attention on
                              hard-to-fill positions that might benefit from the
                              use of hiring incentives.


                              We found that controls for recruitment
                              incentives were, on the whole, adequate.
                              However, HRS needs to provide stronger
                              oversight for retention incentives.       HRS can
                              enhance its controls for recruitment incentives
by providing managers with checklists and examples of well-written incentive
justifications. Moreover, the Library selection officials should assess in each
case whether the use of an employment incentive would be cost-effective. To
accomplish this, HRS should provide relevant financial information, such as
the cost of turnover and filling vacancies, to assist managers in performing a
cost-benefit analysis. This will provide managers with the tools needed to make
well-informed decisions.


HRS management agreed with our findings and recommendations but
deferred two recommendations until it performs further research.



                                                                         Semiannual Report to the Congress • 14
                                 Office of Contracts and
                                 Grants Management

                                 Review of the Sole Source
                                 Award to Power Tech, Inc.

                                 Audit Report No. 2010‐CA‐102
                                 September 2010

                                 In May 2010, the Office of Contracts and Grants Management (OCGM)
                                 awarded a sole-source contract to Power Tech Inc. (Power Tech). The purpose
                                 of the contract was to provide maintenance for the Library telephone system’s
                                 back-up batteries. In July 2010, the OIG received a complaint concerning
                                 the contract award to Power Tech. The complainant alleged that a Library
                                 contracting officer inappropriately sole-sourced the contract to Power Tech
                                 for no valid business reason other than to streamline the procurement process.


                                 Our objective was to determine the validity of this allegation.


                                 We concluded that the allegation was valid to the extent that the sole-source
                                 acquisition was not satisfactorily justified. However, we did not find that
                                 the contracting officer used sole-source authority to streamline the procurement
                                 process. Instead, we found other issues; namely:


                                     •	     The sole-source justification for the acquisition was not 		
                                 	          competently evaluated before it was approved to support the 		
                                 	          contract award,
                                     •	     The contract award made by the contracting officer was
                                 	          primarily based on a flawed sole-source justification that was 		
                                 	          approved by the Library’s competition advocate, and
                                     •	     The price proposed for the contract by Power Tech had not 		
                                 	          been adequately analyzed and determined to be fair and
                                 	          reasonable before the contract was awarded.


                                 We recommended that OCGM establish a quality assurance process that en-
                                 sures (1) solicitations are accurate and complete, and (2) offered prices are
                                 evaluated for reasonableness. Furthermore, we recommended that OCGM
                                 replace the existing competition advocate with a qualified person with exten-
                                 sive experience in federal procurement law.


                                 Management concurred with our findings and recommendations.




Center: Men Creating Decorations for the Thomas Jefferson
Building in an Impromptu Studio. Two of the Three Large Eagles Shown
Flank the Great Hall’s Commemorative Arch. c. October 16, 1894.

15 • Semiannual Report to the Congress
Open World Leadership Center
Fiscal Year 2009 Financial Statements

Audit Report No. 2009-FN-102
March 2010

The mission of the Open World Leadership Center (Open World) is to enhance
understanding and capabilities for cooperation between the United States
and the countries of Eurasia and the Baltic States. In pursuing its mission
Open World has developed a network of leaders in those regions who have
gained significant, firsthand exposure to America’s democratic, accountable
government and free-market system.


Since Open World’s founding by the Congress in 1999, it has emerged as a
unique resource for members of Congress and their staff by assisting Congress
in its foreign policy oversight responsibilities. In this capacity, Open World
conducts one of the largest U.S. exchange programs for Eurasia, through
which some 6,100 volunteer American families in all 50 states have hosted
thousands of emerging leaders from former Soviet countries. As a result of
these exchanges, hundreds of projects and partnerships beneficial to all have
been initiated and enhanced.
Open World is an independent entity in the legislative branch governed by
a board of trustees. Board members consist of members of the Congress
and private citizens. Serving the board of trustees is an audit committee
comprised of three members with extensive experience in Congress, federal
agency operations, finance, and accounting. The audit committee provides
oversight by assuring Open World management appropriately carries out its
responsibilities for internal control, financial reporting, compliance with laws
and regulations, ethics, and economies and efficiencies.


Under contract with the OIG, the accounting firm of Kearney & Company
audited Open World’s fiscal year 2009 financial statements and issued its
Independent Auditor’s Report. The audit included the Center’s consolidated
balance sheets and the related consolidated statements of net costs, changes in
net position, and combined statement of budgetary resources for fiscal years
2009 and 2008. The auditors concluded that the financial statements were
presented fairly in all material respects, and in conformity with U.S. generally
accepted accounting principles. The firm’s auditors also performed tests of
compliance with laws and regulations, and considered internal controls over
financial reporting and compliance. In its audit of Open World, Kearney &
Company found no material weaknesses in internal control and no reportable
noncompliance with the laws and regulations it tested.


We reviewed the firm’s planning and approach to the audit and significant
working papers, evaluated the auditors’ qualifications and independence,
monitored the progress of the audit, coordinated meetings with management,
and performed other procedures we deemed necessary. Our review disclosed
that in all material respects, the audit complied with U.S. generally accepted
auditing standards.

National Digital Information
Infrastructure and Preservation Program

Close-Out Audit
September 2010

The Library’s “Content” strategic goal directs it to expand and preserve in
accessible form a unified and universal body of knowledge and creativity. In
the digital age, the Library leads the world in collecting and preserving digital
information, much of which is created and delivered through the Internet.


At Congress’s direction, the Library established the National Digital
Information Infrastructure and Preservation Program (NDIIPP) to preserve
historically significant content and capture digital content that is at risk of
disappearing. To accomplish this, the Library established a collaborative
national network with other federal, research, non-profit, philanthropic,
library, and business organizations to select, collect, organize, store, preserve,
and authenticate the digital heritage of the American people.


In 2004, as part of the Library’s NDIIPP collaborative network, it entered
into separate cooperative agreements with the University of Maryland, North
Carolina State University, and the University of California at Santa Barbara.
Each agreement was a step in NDIIPP’s efforts to preserve and authenticate the
digital heritage of the American people. The cooperative agreements provided
grants in amounts between $1 and $3.5 million and included provisions for
matching funds from the Library’s partners. The agreements were set to expire
between December 31, 2009 and September 30, 2010 and OCGM and the
Office of Strategic Initiatives requested the assistance of the OIG in setting up
close-out audits for each agreement.


The OIG, in consultation with the Director of NDIIPP Program Management
and the Supervisory Grants Management Officer developed statements of
work for the three close-out audits defining the audit scope, objectives, and
requirements. We are also overseeing the work of the contractor CPA firm
conducting the audits and providing guidance to NDIIPP and OCGM on
audit matters and findings. The Library will use the framework developed
by the OIG to review the results of similar NDIIPP agreements and other
Library-managed grants.




                                                                        Above and opposite: Pre-Attachment, Ethnological Heads For the
                                                                        Exterior of the Thomas Jefferson Building.

                                                                         Semiannual Report to the Congress •18
Investigations
During the reporting period we opened 48 investigations and closed 80. We forwarded seven investigation cases to
Library management for administrative action. Four cases were forwarded to the Department of Justice for criminal
prosecution, three were declined and one is pending. Investigation case and Hotline activities are detailed below.



 Table 1: 	        Investigation Case Activity
                                          Criminal/Civil             Administrative                    Total
 From Prior Reporting Period                     31                         47                           78
 Opened                                          14                         34                           48
 Closed                                          16                         64                           80


 End of Period                                   29                         17                           46


 Table 2: 	        Hotline Activity
                                                                                   Count
 Allegations received                                                                42
 Referred to management for action                                                   15
 Opened as investigations                                                            11
 Opened as audit                                                                     01
 Closed with no action                                                               15
Significant Criminal and
Administrative Investigations

Pornography Access in Reading Room

While analyzing Internet logs, we noted that the computers in a particular
reading room were repeatedly used to access pornography. We reviewed the
video from security cameras and discovered a Library employee using the com-
puters in question. We interviewed the employee, who admitted using the
computers after work on a regular basis to access pornography. The employee
had previously been sanctioned for accessing pornography on an office com-
puter. Based on our investigation, the Library currently has a removal action
pending against the employee.

Conflict of Interest and Misuse of
Government Property and Time

We received allegations that a Library employee operated a business, often
using government resources. We determined that the employee worked on
this business using a government computer during official work hours. In ad-
dition, the employee was personally sued for failing to pay a contractor who
is also a Library vendor the employee dealt with in an official capacity at the
Library. The vendor believed that his business with the Library had dropped
off since filing the lawsuit. The employee lied to investigators and refused to
provide a written statement. Following the commencement of an adverse ac-
tion, the employee resigned from the Library.


Inconsistent Exit Inspections

The OIG received a complaint from a Senate staff member stating that his
backpack was not searched by the U.S. Capitol Police (Capitol Police) when
exiting the Library’s Thomas Jefferson Building. Our review of the Library’s
security video and observations of exit inspections indicated that some visitors
were not properly inspected upon exit. We referred our findings to the Capitol
Police Inspector General for appropriate action.


Employee on Duty at Bar

The OIG received an allegation that a Library employee went to a local bar
regularly during official work hours. We observed the employee patronizing
the bar more than ten times over a seven week period and drinking alcohol
several times in the mid-morning hours. Furthermore, time and attendance
                                                                             Above: The Artist Mark of Cratander, Represented in the West Cor-
                                                                             ridor of the Library of Congress as Depicted in an 1897 Guidebook.
                                                                             The Mark, Dating from 1530, is Emblematic of the Goddess of Fortune
                                                                             and has Been Attributed to Holbein.
                                                                             Opposite: Exterior of the Thomas Jefferson Building Depicting
                                                                             Attached Ethnological Heads. Photograph by Carol Highsmith.

                                                                               Semiannual Report to the Congress • 20
                                records showed no leave taken for these times. We interviewed the employee
                                who admitted frequently visiting the bar during the morning and occasion-
                                ally consuming alcohol during those visits. The employee also admitted to
                                regularly consuming alcohol during lunch, which often extended to about two
                                hours. The employee retired shortly after the interview.


                                Assistance to a Law Enforcement Agency

                                The OIG received a request for assistance from a
                                federal law enforcement agency regarding an al-
                                leged threat made from a Library reading room
                                computer. The agency informed us that someone
                                used the Library computer to make threats to
                                various Washington, DC government officials and
                                homeless shelters. Our analysis of the computer
                                information and security camera video identified
                                the person who made the threats. We provided our
                                evidence to the law enforcement agency. Referral
                                to a prosecutor is pending.


                                Surplus Books Program Fraud

                                The Library’s Office of the General Counsel re-
                                ported that a book selector participating in the
                                Surplus Books Program was planning to exchange
                                books received from the Library with university li-
                                braries for their older versions, and then sell them
                                for profit. The book selector had obtained 611
                                books from the program. We directed the book
                                selector to return the books to the Library. The
                                selector could not account for 91 books, which
                                he claimed he never received. The U.S. Attorney’s
                                Office for the District of Columbia declined to prosecute. In addition, we
                                referred this matter to the OIG’s Audits division, which initiated an audit of
                                controls in the Surplus Books Program.


                                Inappropriate Dissemination of Information

                                We investigated an allegation that a Library employee inappropriately shared
                                a sensitive Library document with an outside foundation affiliated with the
                                Library. The foundation provided information that helped us identify the em-
                                ployee. When presented with the evidence, the employee resigned.




21 • Semiannual Report to the Congress
Follow-up on Investigative Issues
from Prior Semiannual Reports

Pornography Investigations

Five cases of employees using their Library computers to send and receive
sexually explicit materials, previously investigated and referred to Library
management for action, were disposed of in this period:


                                •	   In the first case, the employee received a 	
                           		        20-day suspension.
                                •	   In the second, the employee received a
                           		        15-day suspension with an additional five
                           		        days held in abeyance for one year if there
                           		        is no further misconduct.
                                •	   In the third, the employee received a 3-day
                           		        suspension with an additional two days
                           		        held in abeyance for one year if there is no 	
                           		        further misconduct.
                                •	   In the fourth, the employee received a
                           		        1-day suspension with an additional three
                           		        days held in abeyance for one year if
                           		        there is no further misconduct. The
                           		        employee is also required to donate eight
                           		        hours of annual leave to the Library’s leave 	
                           		        donation program.
                                •	   The fifth employee received a
                           		        25-day suspension for pornography and
                           		        other misconduct unrelated to our
                           		        investigation. After an appeal and
                           		        grievance were denied, the employee has 	
				                                 requested arbitration.

Network Security Violations

The OIG previously reported the case of an employee sharing login information
with a contractor who used it for several months to access the Library’s network
and download pornography. Our investigation determined that there were
more than 200 pornographic images stored on the employee’s computer. The
matter was referred to Library management; the employee was was terminated.
The contractor who received the login information was the victim of a homicide
before action could be taken against him.


                                                                      Center: Construction of the Interior Dome of the Thomas
                                                                      Jefferson Building. October 16, 1894.

                                                                       Semiannual Report to the Congress • 22
23 • Semiannual Report to the Congress
Other Activities
OIG Investigators Receive Justice
Department Law Enforcement Awards

May 2010

On May 7, Assistant Inspector General for Investigations Kenneth R. Keeler
and Special Agent Hugh D. Coughlin of the OIG received awards from the
U.S. Attorney for the District of Columbia, Ronald C. Machen Jr. The awards
are presented to federal, state, and local law enforcement officers in recogni-
tion of their outstanding efforts. The ceremony was held in the Caucus Room
of the Cannon House Office Building.


The prestigious awards recognized the investigators for meritorious service and
the highest standards of professional law enforcement in the pursuit of justice
in the United States of America. The OIG investigators were nominated by
two Assistant U.S. Attorneys for their role in investigating three cases which
resulted in five recent convictions on criminal charges for identity theft, em-
bezzlement, and theft of government property at the Library.


The most noted case was United States v. LaBiska Gibbs. The identity theft
case stemmed from the compromise of personally identifiable information
of ten Library employees, by a Library employee, and subsequent fraudulent
credit purchases totaling nearly $40,000. Ms. Gibbs, a relative of the Library
employee convicted in the case, is currently serving a 30-month prison sen-
tence. The former Library employee, who cooperated with the government,
received three years probation. Both were ordered to make restitution.

Inspector General Responds
to Congressional Inquiries

April-June 2010

The OIG responded to a request from Representative Darrell Issa about
information on unimplemented recommendations and ideas to improve
legislation affecting federal Inspectors General (IGs). In addition to the
status of our recommendations, we provided comments on improving the
Library of Congress Inspector General Act of 2005, and legislation of other
statutory legislative branch IGs. The legislative comments related primarily to
requesting several changes that were made in 2008 for executive branch IGs
to improve independence and accountability that were not made applicable
to legislative branch IGs. These include requiring prior Congressional notice
before removing IGs, standardized pay, prohibition of cash bonuses, requiring
separate legal counsels, explicit intent for obtaining law enforcement authority,
requiring public OIG websites, and other issues.


                                                              Left: Library of Congress, Gallery of Rotunda.
                                                              Detroit Photographing Co. c. 1900

                                                                Semiannual Report to the Congress •24
                                           We also responded to a request from Senators Charles Grassley and Tom
                                           Coburn about interference with OIG activities.         The Senators requested
                                           information about: (1) objection to oversight and problems accessing
                                           information, (2) disclosure of the results of our work on a public website, and
                                           (3) threats or impediments in communicating with the Congress.                 We
                                           responded that there were some issues that created impediments to OIG
                                           investigative effectiveness and had previously communicated them to the
                                           Library’s Office of the General Counsel.

                                           OIG Research Assistance to Open World Leadership
                                           Center (Open World) on Gift Policy Development

                                           June 2010

                                           Open World approached our office for assistance in researching best practices
                                           and legal considerations in order to develop policies and procedures for the giv-
                                           ing and receiving of gifts. Open World sought guidance on limitations placed
                                           on foreign delegates from giving or receiving gifts with the use of Open World
                                           grant funds as well as any restrictions on agency employees receiving gifts.


                                           In response to Open World’s request, we surveyed other agencies involved in
                                           managing both foreign and domestic grants regarding their practices and pro-
                                           cedures. We also reviewed executive and legislative branch statutes and regula-
                                           tions, including the United States Code, Code of Federal Regulations, Library
                                           of Congress Regulations, Office of Management and Budget Circulars, U.S.
                                           House of Representatives Committee on Standards of Official Conduct, and
Above: Library of Congress                 U.S. Senate Select Committee on Ethics.
Book Plate with Date of 1800.
Center: Rare Book Collection.

                                           We provided the results of our inquiries and research to Open World manage-
                                           ment emphasizing that their policies and procedures should comply with cited
                                           laws and regulations to assure that gifts are received from allowable sources,
                                           involve only nominal value, and are received or granted under ethical circum-
                                           stances.

                                           Chairing the Committee to Select a Single Financial
                                           Statements Auditor for Agencies Cross-Serviced
                                           by the Library’s Financial System

                                           June 2010

                                           In guidance accompanying the 2009 Omnibus Appropriations Act, Congress
                                           directed the Library’s Inspector General to chair the committee to select a
                                           single financial statements auditor for agencies cross-serviced by the Library’s




                   25 • Semiannual Report to the Congress
financial system. In response, we assembled a committee of representatives
from the Capitol Police OIG, the Congressional Budget Office, Open World,
the James Madison Council, and the Library’s Office of the Chief Financial
Officer.


During this period the committee worked on developing guidelines for selecting
a single auditor, drafting the statement of work to accompany a request for
quotation, and projecting a timeline for obtaining and evaluating bids to award
the contract.


The committee is on course to issue a request for quotation in February 2011
with a targeted contract award date in May 2011. The single auditor selected
will start preliminary audit work in May 2011 at participating agencies for
fiscal year 2011 financial statements audits.

Assistant Inspector General for Audits
Panelist in National Conference

Along with the Inspectors General of the Smithsonian Institution and the Na-
tional Archives and Records Administration (NARA), the Assistant Inspector
General for Audits served at a well-attended session as a panelist at the Joint
Annual Meeting of the Council of State Archivists (CoSA), the National As-
sociation of Government Archives and Records Administrators (NAGARA),
and the Society of American Archivists (SAA) on “Security Challenges of the
21st Century.”


The SAA is North America’s oldest and largest national archival professional
association, whose mission is to serve the educational and informational needs
of more than 5,500 individual and institutional members and to provide
leadership to ensure the identification, preservation, and use of records of      Above: Book End Paper with Dutch Marble Pattern.

historical value. CoSA is a national organization comprising the individuals
who serve as directors of the principal archival agencies in each state and
territorial government. The NAGARA is a professional organization dedicated
to the effective use and management of government information and publicly
recognizes notable efforts and accomplishments.


Working collectively through their membership in CoSA, the State Archivists
encourage cooperation among the states on matters of mutual interest, define
and communicate archival and records concerns at a national level, and work
with the National Historical Publications and Records Commission, NARA,
and other national organizations to ensure that the nation’s documentary
heritage is preserved and accessible.




                                                            Semiannual Report to the Congress • 26
                                Peer Reviews
                                Peer Reviews of the Library OIG

                                During this reporting period, the Peace Corps Office of the Inspector General
                                conducted a peer review of the audits division of the Library of Congress OIG. The
                                review resulted in an unqualified (clean) opinion on the Audit Division’s system
                                of quality assurance. The report made no recommendations for improvement.

                                Peer Reviews of other OIGs

                                The Library’s OIG performed no peer reviews of other OIGs during this reporting
                                period.




Above: A “Fanfare Style” Binding with Gauffered Edge,Printed by
Christopher Plantin, Antwerp, 1570. Lessing J. Rosenwald Collec-
tion, Library of Congress.
 27 • Semiannual Report to the Congress
Review of Legislation and Regulations

Table 3:                   Review of Library of Congress Regulations (LCRs)
       LCR Reviewed                                Comments by the Office of The Inspector General

LCR 414-1			
                                 We offered no comment regarding this LCR.
Marking of Library Materials

LCR 1512-2			
Delegation of Appropriation      We offered no comment regarding this LCR.
Responsibility

LCR 1518-3		
                                 We offered no comment regarding this LCR.
Routing of Personnel Action


LCR 1526                         We suggested the addition of language to inform the OIG when the Office of the General Counsel
Ratification of Unauthorized     (OGC) believes the Library has a commitment to be deemed an ‘unauthorized commitment’ over
Commitments                      $25,000.

                                 We requested the addition of language instructing the Personnel Security Officer to advise the OIG
LCR 2024-1			
                                 when breaches of security of classified material occur at the Library. We also suggested clarifying
Personnel Security and
                                 language about the responsibility of the Personnel Security Office (PSO) to conduct background
Suitability Program
                                 investigations.

                                 We commented that this LCR should contain language to clearly denote that the “Public Trust”
LCR 2024-2		
                                 designation also include positions with duties involving regular access to or responsibility for
Position Sensitivity and
                                 safeguarding or controlling collections material of significant historical, cultural, or monetary value
Risk Designation
                                 that warrant such a designation.

LCR 2024-3			                    We suggested the addition of language to report certain violations to the OIG. We also recommended
Investigative Requirements       language to more clearly state that the PSO is responsible for initiating background investigations.

OGC Directive on Personally
                                 We recommended that this directive address the dissemination of PII via the Library’s email system.
Identifiable Information (PII)




                                                                              Semiannual Report to the Congress • 28
Unimplemented Recommendations
Table 4A: 	        Significant Recommendations from Previous Semiannual
                   Reports for Which Corrective Action Has Not Been Completed
         Subject            Report No. and         Office       Rec.                  Summary and Status of Recommendation
                              Issue Date                        No.
 Office of the Chief Financial Officer (OCFO)
                                                                       Include more specific details in internal OCFO written procedures
                                                                       for performing travel card transaction reviews and delinquency report
                            2009-PA-106
 Travel Card Program                            Travel Office   I.a    reviews–OCFO has acquired an automated system to evaluate travel
                            January 2010
                                                                       card transactions and plans to develop the recommended written
                                                                       procedures no later than June 1, 2011.
 Integrated Support Services (ISS)
                                                                       Reevaluate three questionable surge allowances–The Architect of the
 Requirements Analysis                           Integrated            Capitol’s (AOC) expert consultant has nearly concluded field surveys,
                            2006-SP-802
 for the Proposed Fort                            Support       III    customer interactions, data gathering, and analysis needed to accurately
                            March 2008
 Meade Logistics Center                           Services             identify and validate all storage, surge, and growth requirements.
                                                                       Target completion for report presentation is February 1, 2011.
                                                                       Recalculate the growth factor and consider leasing storage space
                                                                       on an as-needed basis to accommodate potential growth in storage
 Requirements Analysis                           Integrated            requirements–The AOC’s consultant is evaluating the Library’s
                            2006-SP-802
 for the Proposed Fort                            Support       IV     storage, surge, and growth factors at the proposed logistics building
                            March 2008
 Meade Logistics Center                           Services             and assessing alternatives including leasing, new construction, and
                                                                       sharing facilities. Target completion for report presentation is
                                                                       February 1, 2011.
                                                                       Revise Library of Congress Regulation (LCR) 2018-5–The Office
 Federal Employees’
                            2008-PA-102       Health                   of the General Counsel is reviewing union feedback on the draft
 Compensation Act                                               IV
                           September 2008 Services Office              revision and has been delayed in meeting the original target date of
 Program
                                                                       summer 2010.

                                                                       Develop and implement policies and procedures that provide
                                                                       an organized means for Library organizations and employees to
                                                                       conform to federal records management requirements–ISS Records
                                                                       Management Section (RMS) has drafted a: (1) preliminary revision
 Retention of               2009-PA-104      Office Systems
                                                                I.a    to LCR 1920, Records Management, (2) Directive on records
 Federal Records            March 2010          Services
                                                                       management, and (3) Handbook for Service/Support Units’ Records
                                                                       Coordinators and Liaisons. It is also revising internal RMS Standard
                                                                       Operating Procedures and forms to support the policy and directive
                                                                       revisions. Target date for completion is third quarter FY 2011.

                                                                       Initiate a program to provide active oversight of service units’
                                                                       recordkeeping practices. Ensure that the oversight program’s design
                                                                       provides adequate assurance that service units’ practices comply
 Retention of               2009-PA-104      Office Systems            with the Federal Records Act and National Archives and Records
                                                                I.b
 Federal Records            March 2010          Services               Administration regulations–Oversight positions have been established
                                                                       to assure compliance with regulatory requirements. Training,
                                                                       operating requirements, and job descriptions are under development
                                                                       for these positions with a target completion date of FY 2011.
                                                                       Develop and implement a training program on federal records
                                                                       management for Library staff–ISS/RMS has developed a training
 Retention of               2009-PA-104      Office Systems
                                                                I.c    module on essential records management responsibilities for
 Federal Records            March 2010          Services
                                                                       all Library employees. Roll out of the training has not yet been
                                                                       scheduled.
                                                                       Perform a cost/benefit analysis to determine whether the Library
 Retention of               2009-PA-104      Office Systems            should implement an electronic recordkeeping system–The
                                                                 II
 Federal Records            March 2010          Services               Library will initiate a cost/benefit analysis after new procedures are
                                                                       implemented. Target for conducting the analysis is FY 2012.



 29 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
               	 Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No. and      Office     Rec.                  Summary and Status of Recommendation
                            Issue Date                   No.
Library Services (LS)
                                                                Use the decision model to make decisions about reading room, office
Utilization of             2003-PA-104       Library            space, and storage requirements–Implementation of the decision
                                                         II.2
Reading Rooms              March 2004        Services           model was scheduled for October 1, 2010. The model will be used
                                                                to make decisions regarding reading rooms.
                                                                Establish criteria for specifically defining “Top Treasure” collection
                                                                items and a clearly defined process to nominate/transfer collection
Top Treasures Security
                           2008-PA-103       Library            items to the “Top Treasure” category–LS has drafted an LCR that
and Preservation                                         I.a
                           January 2009      Services           establishes criteria to define “Top Treasure” category collection items
Controls
                                                                and developed a form to nominate additional collection items for this
                                                                designation. Target date for issuance is the end of FY 2011.
                                                                Reevaluate the position designations of staff members with
                                                                authorized vault access who occupy non-sensitive positions and
                                                                revise LCRs dealing with sensitivity designations for positions with
Top Treasures Security
                           2008-PA-103       Library            access to priceless collection items–The Chief of Staff agreed with
and Preservation                                         I.c
                           January 2009      Services           the recommendation to establish Public Trust designations for staff
Controls
                                                                with access to the Top Treasures. Revision to the LCRs is targeted
                                                                for March 2011. The Library’s Personnel Security Office will then
                                                                determine each position’s level of risk.
                                                                Develop and implement an automated system to track and account
Rare Book and Special      2008-PA-101       Library
                                                         I.a    for new acquisitions and establish adequate segregation of duties–LS
Collections Security       March 2009        Services
                                                                is still developing a solution to this recommendation.
                                                                Develop and document new policies and procedures for authorizing,
                                                                tracking, and reviewing collection material on loan–LS is developing
Rare Book and Special      2008-PA-101       Library
                                                         I.c    a database solution to track materials on loan with accompanying
Collections Security       March 2009        Services
                                                                policies and procedures and anticipates implementation by December
                                                                2010.
                                                                Reevaluate background investigation procedures for Rare Book and
                                                                Special Collection’s management and periodically update background
                                                                investigations–The affected LCRs are being updated for risk
Rare Book and Special      2008-PA-101       Library            designations and updated investigations for Public Trust positions as
                                                         I.f
Collections Security       March 2009        Services           recommended. Once the Office of Personnel Management makes a
                                                                Public Trust reinvestigation product available to agencies sometime
                                                                in FY 2011, the Library will implement this recommendation and
                                                                expects implementation by December 2010.
Office of the Librarian
                                                                Coordinate with OCFO to identify opportunities for modifying/
                                                                improving Momentum–Office of Contracts and Grants Management
                           2007-PA-102      Office of           (OCGM) is working with OCFO and Information Technology Services
Office of Contracts                                      IV
                          September 2007    Contracts           (ITS) to develop Momentum acquisition planning data for tracking
                                                                procurements from initiation to award. Target implementation is FY
                                                                2011.
                                                                The Development Office (DO) should: document its access control
Raiser’s Edge              2006-IT-302     Development          policy, and revise password access to comply with IT Security
                                                          I
Software Program          December 2007       Office            Directive 02–This will be completed with the Certification and
                                                                Accreditation (C&A) in January 2011.
                                                                The DO should ensure that the Raiser’s Edge system undergoes
Raiser’s Edge              2006-IT-302     Development
                                                          II    C&A–C&A is progressing with a target completion date of January
Software Program          December 2007       Office
                                                                2011.




                                                                              Semiannual Report to the Congress •30
Unimplemented Recommendations
Table 4A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
        Subject           Report No. and      Office       Rec.                  Summary and Status of Recommendation
                            Issue Date                     No.
Office of the Librarian Continued
                                                                  System managers for Raiser’s Edge should regularly review the
                                                                  system’s transaction logs for suspect data events–The DO and ITS are
Raiser’s Edge             2006-IT-302      Development
                                                           III    researching software to assist them in reviewing system logs. The DO
Software Program         December 2007        Office
                                                                  and ITS will conduct a cost/benefit analysis to determine feasibility
                                                                  after pricing is determined.
                                             Office of            Revise LCR 2020-7 to allow complainants to use dispute resolution
                                           Opportunity,           during the formal complaint process–The Director of Opportunity,
Dispute Resolution        2002-PA-104
                                           Inclusiveness   III    Inclusiveness and Compliance (OIC) is scheduled to address LCR
Center                   September 2003
                                                and               2020-7 which will conclude this recommendation by the end of FY
                                           Compliance             2011.
                                             Office of
Equal Employment                           Opportunity,           Evaluate and revise LCR 2010-3.1–The Director of OIC completed
                          2001-PA-104
Opportunity                                Inclusiveness    I     the final draft. The submittal to the Executive Committee (EC) for
                          February 2003
Complaints Office                               and               final approval is tentatively scheduled for the first quarter of FY 2011.
                                           Compliance
                                                                  The Library should assess its Diversity Program annually using the
                                                                  Equal Employment Opportunity Commission’s (EEOC) MD-715
                                             Office of            criteria and develop a plan to achieve elements in the model–OIC
                                           Opportunity,           has completed a comprehensive assessment documenting diversity
Diversity Management      2008-SP-104
                                           Inclusiveness   II.1   trends in the Library’s workforce between 1994 and 2009 based on
Program                    July 2008
                                                and               MD-715 related criteria. It has also drafted a 2011-2016 Multi-Year
                                           Compliance             Affirmative Employment Program Plan (MYAEPP) that includes
                                                                  elements of the MD-715 self-assessment. The EC is currently
                                                                  reviewing these documents.
                                                                  Track promotions and performance evaluations to determine
                                                                  whether there is consistency among groups–OIC has conducted
                                             Office of
                                                                  a comprehensive assessment of diversity trends in the Library’s
                                           Opportunity,
Diversity Management      2008-SP-104                             workforce between 1994 and 2009 including an analysis of
                                           Inclusiveness   II.5
Program                    July 2008                              promotion trends. In accordance with the Library’s proposed 2011-
                                                and
                                                                  2016 MYAEPP, OIC will update this data for each subsequent fiscal
                                           Compliance
                                                                  year. The EC is reviewing the report and the 2011-2016 MYAEPP.
                                                                  Recommendation remains open pending EC approval.
                                                                  Develop a means to conduct an in-depth analysis of separations to
                                             Office of
                                                                  identify trends that will assist management in determining reasons
                                           Opportunity,
Diversity Management      2008-SP-104                             behind the separation rates of minorities and females–OIC has
                                           Inclusiveness   II.6
Program                    July 2008                              conducted a comprehensive assessment of diversity trends in the
                                                and
                                                                  Library’s workforce between 1994 and 2009. Results are under
                                           Compliance
                                                                  review by the EC.
                                                                  Organize a facilitative workshop with program supervisors, Human
                                                                  Resources Services (HRS), and OIC staff to discuss identified
                                             Office of            barriers–When approved by the EC, OIC will release the Library’s
                                           Opportunity,           MYAEPP for FY 2011-2016. OIC will then (1) conduct separate
Diversity Management      2008-SP-104
                                           Inclusiveness   II.7   briefings for Library employee unions and Congressional relations
Program                    July 2008
                                                and               staff, (2) facilitate print copy and electronic distribution to all
                                           Compliance             service unit and support office executive leaders, (3) facilitate an
                                                                  electronic distribution to all Library employees, and (4) implement a
                                                                  communication plan.




31 • Semiannual Report to the Congress
Table 4A: 	       Significant Recommendations from Previous Semiannual
                  Reports for Which Corrective Action Has Not Been Completed
        Subject             Report No. and      Office       Rec.                  Summary and Status of Recommendation
                              Issue Date                     No.
                                                                    Convene a Hispanic Employment Work Group to develop strategies
                                                                    to improve Hispanic representation–OIC’s 2011-2016 MYAEPP
                                               Office of
                                                                    includes a recommendation to identify and implement recruitment
                                             Opportunity,
Diversity Management         2008-SP-104                            strategies for Hispanics, including convening a Hispanic Employment
                                             Inclusiveness   II.8
Program                       July 2008                             Work Group. OIC hired a consultant on workforce diversity
                                                  and
                                                                    management to assist in developing and implementing strategies for
                                             Compliance
                                                                    Hispanic representation in the Library’s workforce. These efforts will
                                                                    occur upon EC approval.
                                                                    Conduct exit interviews to determine why staff leave and identify
                                               Office of            employee perceptions about organizational commitment to
                                             Opportunity,           diversity–Pending EC approval OIC’s 2011-2016 MYAEPP includes
Diversity Management         2008-SP-104
                                             Inclusiveness   II.9   a recommendation to conduct a separation study to identify retention
Program                       July 2008
                                                  and               strategies for African Americans and starting in FY 2011, OIC will
                                             Compliance             measure the Library’s success in retaining and recruiting a diverse
                                                                    workforce.
                                                                    Identify critical senior level and management positions and focus
                                                                    training, career development, and mentoring programs –Pending EC
                                               Office of
                                                                    approval, OIC’s 2011-2016 MYAEPP establishes measures for the
                                             Opportunity,
Diversity Management         2008-SP-104                            number and percentage of employees participating in professional
                                             Inclusiveness   III
Program                       July 2008                             training, career development, Library-wide supervisory development,
                                                  and
                                                                    and mentoring relationships. OIC has developed a mandatory “A
                                             Compliance
                                                                    Respectful Workplace” course to support managers in providing an
                                                                    inclusive, respectful, and productive work environment.
                                               Office of
                                                                    The Library should make its “No Fear” data available to staff via the
                                             Opportunity,
Diversity Management         2008-SP-104                            Library’s Staff Intranet Website and benchmark this data against
                                             Inclusiveness   IV
Program                       July 2008                             other federal agencies of similar size–Upon completion of the newly
                                                  and
                                                                    designed OIC Intranet, OIC will post the Library’s “No Fear” data.
                                             Compliance
Office of Strategic Initiatives (OSI)
                                                                    Produce a transformational guide that contains a plan of execution to
Information                                  Information            ensure that the Library moves forward as a total institution with one
                             2008-PA-105
Technology Strategic                         Technology      1.D    voice–This will be accomplished through the Enterprise Architecture
                             March 2009
Planning                                       Services             effort currently in progress. A transition plan will be finalized,
                                                                    approved, and shared with the Library at large.
                                                                    Separate the IT function from OSI and have the Chief Information
Information                                  Information            Officer (CIO) report directly to the Librarian or Chief Operating
                             2008-PA-105
Technology Strategic                         Technology      3.A    Officer (COO)–Library management will evaluate the newly
                             March 2009
Planning                                       Services             established IT governance processes when they are operational for a
                                                                    sufficient amount of time.
                                                                    Implement a commercial off-the-shelf enterprise help desk system that
                                                                    includes metrics–The CIO has completed the process of itemizing all
Information                                  Information
                             2008-PA-105                            IT-related procurements and, working closely with ITS, is in the early
Technology Strategic                         Technology      5.D
                             March 2009                             stages of evaluation. Once the analysis is complete, ITS will consider
Planning                                       Services
                                                                    the next steps, the availability of human and capital resources, and
                                                                    then present a proposal to the IT Steering Committee.




                                                                                 Semiannual Report to the Congress • 32
Unimplemented Recommendations
Table 4A:    Significant Recommendations from Previous Semiannual
             Reports for Which Corrective Action Has Not Been Completed
        Subject        Report No. and     Office      Rec.                    Summary and Status of Recommendation
                         Issue Date                   No.
OSI Continued
                                                              Negotiate a new help desk contract to meet the different service level
                                                              requirements of all service and support units to eliminate duplicative
Information                             Information
                        2008-PA-105                           services–The possibility of duplicative services is currently being
Technology Strategic                    Technology    5.E
                        March 2009                            reviewed through the Chief Financial Officer’s (CFO’s) study on IT-
Planning                                  Services
                                                              related procurements. The need for a new help desk contract will be
                                                              considered once the study has been completed.
                                                              Develop dynamic, evolving metrics to measure performance–A new
Information                             Information
                        2008-PA-105                           metrics program is being built that will be able to function across
Technology Strategic                    Technology    5.F
                        March 2009                            all IT services, including the help desk. A prototype is undergoing
Planning                                  Services
                                                              testing.
                                                              ITS should conduct a comprehensive needs assessment of the
                                        Information           hardware, software, and equipment and ensure an adequate
Alternate Computing     2009-IT-101
                                        Technology    I.a.1   infrastructure is in place to mirror and recover the Library’s critical
Facility               September 2009
                                          Services            systems–The initial assessment will be completed by November,
                                                              2010.
                                                              Ensure that the availability and functionality of the Library’s critical
                                                              systems at the Alternate Computing Facility (ACF) are periodically
                                        Information           tested, documented, and reviewed–ITS has developed an outline of
Alternate Computing     2009-IT-101
                                        Technology    I.b.1   its requirements for periodically exercising the IT contingency plans
Facility               September 2009
                                          Services            developed for the Library’s Tier 1 Applications. Testing schedules,
                                                              roles, responsibilities, and test plans will be incorporated into the
                                                              Memorandum of Understanding for the applicable Tier 1 systems.
                                                              Conduct a comprehensive evaluation of remote access and
                                                              connectivity to the ACF–ITS conducted the recommended
                                                              evaluation of remote access and connectivity capabilities. As a
                                        Information           result of this evaluation, ITS implemented additional remote access
Alternate Computing     2009-IT-101
                                        Technology    I.c.1   capabilities at the Madison Data Center for up to 4,000 users in
Facility               September 2009
                                          Services            the event of a pandemic Continuity of Operations (COOP) event.
                                                              The last phase of corrective action will be to replicate the increased
                                                              remote access capabilities at the ACF. Procurement of the necessary
                                                              hardware and software licenses is in progress.
                                                              Coordinate with the Library’s service units and divisions to develop
                                        Information           and conduct tests to verify that users can directly access and use the
Alternate Computing     2009-IT-101
                                        Technology    I.c.2   systems and data at the ACF from remote locations–Corrective action
Facility               September 2009
                                          Services            on this finding is contingent on the completion of actions currently
                                                              being taken to address unimplemented findings I.b.1 and I.c.1
                                                              Identify and classify the Library’s mission essential functions and
                                        Information           critical systems–ITS recommendations for identifying and classifying
Alternate Computing     2009-IT-101
                                        Technology    II.1    mission essential functions and critical systems were presented to
Facility               September 2009
                                          Services            the IT Steering Committee and incorporated into the Investment
                                                              Charter. The Charter is currently under review by the EC.
                                                              Establish procedures to ensure that the list of systems, classified by tier
                                        Information
Alternate Computing     2009-IT-101                           level, is complete and kept up-to-date–Based on the EC response to
                                        Technology    II.2
Facility               September 2009                         the presentation in II.1 above, ITS will submit a standard operating
                                          Services
                                                              procedure for EC approval.




33 • Semiannual Report to the Congress
Table 4A: 	      Significant Recommendations from Previous Semiannual
                 Reports for Which Corrective Action Has Not Been Completed
       Subject         Report No. and      Office      Rec.                    Summary and Status of Recommendation
                         Issue Date                    No.
                                                               Continue to implement the OIG’s recommendations to improve the
                                        Information            readiness and functionality of the ACF data center discussed in the
Data Center Power       2009-SP-102
                                        Technology     III.3   September 2009 OIG report, Improvements are Needed to Bolster
Outage Incident        December 2009
                                          Services             the Readiness of the Alternate Computing Facility, No. 2009-IT-101–
                                                               Efforts to implement the ACF audit recommendations continue.
                                                               ITS should address the single point of failure for wireless cellular phone
                                        Information
Data Center Power       2009-SP-102                            service equipment in the main data center–ITS will recommend to
                                        Technology     IV.1
Outage Incident        December 2009                           ISS that the wireless cellular phone service be included as part of the
                                          Services
                                                               emergency plan.
Human Resources Services (HRS)
                                                               Require the staffing specialists and assistants to consistently enter
Human Resources         2009-PA-101      Workforce             complete hiring data into EmpowHR–Workforce Acquisitions
                                                       I.a.1
Services               November 2009    Acquisitions           (WFA) has more clearly defined the fields contained in EmpowHR
                                                               and was scheduled to update all existing cases by the end of FY 2010.
                                                               Compare actual hiring data with planned results and periodically
                                                               assess and adjust the time goals for each hiring step–HRS has made
Human Resources         2009-PA-101      Workforce
                                                       I.a.2   some adjustments in the distribution of work assignments. Additional
Services               November 2009    Acquisitions
                                                               adjustments will be made during the transition from AVUE to the
                                                               Monster Government Solutions (MGS) system.
                                                               Develop a Satisfaction Survey modeled after the Office of Personnel
                                                               Management’s Management Satisfaction Survey to determine
Human Resources         2009-PA-101      Workforce             managers’ satisfaction levels with the hiring process and identify
                                                       I.c.2
Services               November 2009    Acquisitions           strategies for making process improvements–A new electronic survey
                                                               tool has been developed, is scheduled to be implemented in October
                                                               2010, and sent to selecting officials as each vacancy closes.
                                                               Prepare performance appraisals which compare employees’ actual
Human Resources         2009-PA-101      Workforce             accomplishments with corresponding performance requirements–
                                                       II.1
Services               November 2009    Acquisitions           Performance plans were not updated as planned. Modified plans will
                                                               be implemented for the 2011 performance year.
                                                               Develop reports which identify the workloads and results of the
Human Resources         2009-PA-101      Workforce
                                                       II.2    staffing specialists and assistants–The WFA is reviewing the potential
Services               November 2009    Acquisitions
                                                               of using the status codes in MGS.
                                                               Develop a methodology to track and analyze data regarding the
Human Resources         2009-PA-101      Workforce             Library’s recruiting and hiring activities–OIC has finalized the
                                                       III.a
Services               November 2009    Acquisitions           methodology that it will use to assess data for recruiting and hiring
                                                               activities and implement it in FY 2011.
                                                               Make the contents of the Library’s “Jobs/Fellowships” Webpage
Human Resources         2009-PA-101      Workforce             more inviting and informative to job seekers exploring Library career
                                                       III.b
Services               November 2009    Acquisitions           opportunities and ensure terms used are clearly explained–Redesign
                                                               of the HRS Jobs Page is currently underway.




                                                                            Left: Early Book Plate of the Library of Congress.

                                                                            Semiannual Report to the Congress • 34
Implemented Recommendations
Table 4B: 	       Significant Recommendations from Previous Semiannual Reports
                  for Which Corrective Action Was Completed During This Period
        Subject            Report No. and         Office       Rec. No.              Summary of Recommendation and Action
                             Issue Date
Office of the Chief Financial Officer (OCFO)
                                                                          The Library should establish a system of internal controls
                                                                          designed to ensure that the data collected for program
                                                                          performance assessment is valid and verified–The Library’s
Performance-Based           2009-PA-105
                                               Library-Wide      I.1      Planning, Budgeting, and Program Performance Assessment
Budgeting                  December 2009
                                                                          policy and directives establish the control framework
                                                                          recommended and the responsibilities for performance data
                                                                          verification and validity.
                                                                          The Library should require that service and support units’
                                                                          senior executives certify the validity of their units’ final
Performance-Based           2009-PA-105
                                               Library-Wide      I.2      assessments–As of June 30, 2010 all service units certified the
Budgeting                  December 2009
                                                                          validity of their performance ratings using a signed memo.
                                                                          The process is now being automated.
                                                                          Identify connections between program performance
                                                                          assessment activities and budgeting processes by requiring
                                                                          service and support units to document: (1) budget-related
                                                                          decisions in eLCplans performance assessments; (2) shifts in
Performance-Based           2009-PA-105
                                               Library-Wide       II      base budgets resulting from performance assessments; and (3)
Budgeting                  December 2009
                                                                          reprogramming requests affected by performance assessments–
                                                                          The Library’s new planning and budgeting framework
                                                                          incorporates more integration of the planning and budgeting
                                                                          processes as recommended.
                                                                          Establish a working group to plan a framework for conducting
                                                                          program evaluations at the Library–The Library’s new
Performance-Based           2009-PA-105                                   planning and budgeting framework will serve to identify and
                                               Library-Wide      III
Budgeting                  December 2009                                  direct targeted resources to program evaluation needs. The
                                                                          framework’s filter effect will identify those programs, projects,
                                                                          and activities in greatest need of follow-up evaluations.
                                                                          Ensure all cardholders are fully aware of their responsibilities
                                                                          and of proper card use by either (1) requiring all cardholders
                            2009-PA-106
Travel Card Program                            Travel Office     I.b      receive refresher training every three years or (2) sending out a
                            January 2010
                                                                          yearly reminder on policies and procedures–OCFO will send
                                                                          out end of year reminders as recommended.
                                                                          Ensure that the Travel Office (TO) reviews Library employees’
                            2009-PA-106                                   travel credit card transactions every month–The TO
Travel Card Program                            Travel Office     II.a
                            January 2010                                  established procedures to review the transactions by the 20th
                                                                          of each month.
                                                                          Issue annual reminders to cardholders regarding proper card
                            2009-PA-106
Travel Card Program                            Travel Office     II.b     use and to only carry the card while on official travel–OCFO
                            January 2010
                                                                          will send out end of year reminders as recommended.
                                                                          The TO should identify cards without activity in 12 months
                                                                          and coordinate appropriate action with the service and
                            2009-PA-106
Travel Card Program                            Travel Office    IV.a      support units–OCFO will send out end of year reminders as
                            January 2010
                                                                          recommended and update the list of service and support unit
                                                                          cardholders.
                                                                          Periodically remind supervisors and cardholders of their
                            2009-PA-106                                   responsibilities, such as notifying OCFO when an employee’s
Travel Card Program                            Travel Office    IV.b
                            January 2010                                  job no longer involves travel–OCFO will send out end of year
                                                                          reminders as recommended.


35 • Semiannual Report to the Congress
Table 4B: 	        Significant Recommendations from Previous Semiannual Reports
                   for Which Corrective Action Was Completed During This Period
         Subject            Report No. and      Office        Rec. No.              Summary of Recommendation and Action
                              Issue Date
                                                                         Automate the interface for transmitting electronic payments–
                                                                         OCFO’s research has not found an acceptable automated
Disbursing Office           2007-PA-103       Disbursing
                                                                II.d     solution. OIG has closed this recommendation as OCFO
Controls                   September 2008       Office
                                                                         will continue to employ independent random verification of
                                                                         disbursing transactions as an alternate control.
                                                                         Seek funding to ensure backup power is available at the
                                                                         alternate facility–The Library determined that a backup power
Disbursing Office           2007-PA-103       Disbursing                 source would be cost-prohibitive and continues to explore
                                                               IV.1
Controls                   September 2008       Office                   options for relocating the site to a facility which already has
                                                                         backup power. OIG has closed this recommendation due to
                                                                         funding limitations.
Integrated Support Services (ISS)
                                                                         Implement an automated system that includes components
Federal Employees’                             Health
                            2008-PA-102                                  for tracking Federal Employees’ Compensation Act claims and
Compensation Act                               Services          II
                           September 2008                                alerting ISS of upcoming reporting deadlines–The automated
Program                                         Office
                                                                         system has been implemented.
                                                                         ISS management should undertake more initiatives to increase
Energy Conservation          2009-PA-103       Facility                  awareness among Library staff of the importance of energy
                                                                II.c
Efforts                        July 2009       Services                  conservation and recycling programs–ISS has undertaken and
                                                                         will continue to undertake a variety of initiatives in this area.
Copyright Office (CO)
                                                                         Reevaluate operating conditions and adjust specialists’
                                                                         performance          requirements        accordingly–Copyright
Copyright Claims            2001-IT-304                                  implemented a system upgrade in August 2010 with
                                              Copyright         III
Processing                 September 2009                                immediate improvement in processing speeds and productivity.
                                                                         Management has notified the union to reopen negotiations for
                                                                         registration specialists’ performance requirements.
Library Services (LS)
                                                                         Develop a decision model for determining reading room space
                                                                         requirements–LS has developed an electronic decision model
Utilization of Reading       2003-PA-104       Library
                                                                II.1     for determining current and future research center space
Rooms                        March 2004        Services
                                                                         requirements, with implementation planned for October
                                                                         2010.
                                                                         Develop and document procedures for outgoing mail
                                                                         to prevent unauthorized removal of collection items–
Rare Book and Special        2008-PA-101       Library
                                                                I.d      Management has implemented a new outgoing mail policy
Collections Security         March 2009        Services
                                                                         that requires independent inspection of all outgoing mail to
                                                                         prevent collection theft.
Office of the Librarian
                                                                        Lack of compliance with certain Federal Acquisition
Lack of Compliance                                             Non      Regulation requirements–OCGM has made progress and
                             2008-SP-101      Office of
with Library Contracting                                     Compliance continues to work with the General Counsel, Chief Financial
                             March 2008       Contracts
Policy is Widespread                                         Reason IV Officer, and the service and support units to develop sound
                                                                        procurement policies and procedures.
                                               Office of                 The Library should develop a tracking system that will notify
                                             Opportunity,                the OIC when an employee is promoted to a supervisor
Diversity Management         2008-SP-104
                                             Inclusiveness      II.3     and then disseminate the Equal Employment Office policy
Program                       July 2008           and                    statement to newly appointed supervisors on an ongoing
                                             Compliance                  basis–Tracking and training was implemented.


                                                                               Semiannual Report to the Congress • 36
Implemented Recommendations
Table 4B: 	        Significant Recommendations from Previous Semiannual Reports
                   for Which Corrective Action Was Completed During This Period
         Subject              Report No. and     Office      Rec. No.              Summary of Recommendation and Action
                                Issue Date
Office of the Librarian Continued
                                               Office of                Develop and implement a policy that specifically addresses
Personally Identifiable       2008-PA-104      the Chief                worksite files, supervisory notes, and ghost files for non-
                                                               II.c
Information                  September 2009    Operating                bargaining unit employees–HRS has received approval
                                                Officer                 through OGC and has issued a directive addressing this.
Office of Strategic Initiatives (OSI)
                                               Information
Alternate Computing           2009-IT-101                               ITS should ensure the Library’s critical systems are fully
                                               Technology     I.a.2
Facility                     September 2009                             mirrored at the ACF–Completed.
                                                 Services
                                                                        Develop and implement procedures to periodically test the
                                               Information
Alternate Computing           2009-IT-101                               backup media, such as backup tapes, at the ACF–Completed,
                                               Technology     I.b.2
Facility                     September 2009                             procedures have been developed to periodically test the usability
                                                 Services
                                                                        of system backups at the ACF.
                                                                        Ensure written agreements with service and support units are
                                               Information              standardized and current–ITS has developed a Service Level
Alternate Computing           2009-IT-101
                                               Technology      III      Offering (SLO) document that has been submitted to Library
Facility                     September 2009
                                                 Services               service and support units. The SLO will also be made available
                                                                        to all Library personnel via the OSI Intranet site.
                                                                        The Library’s Facility Services and the AOC should work
                                                                        to ensure that all main data center backup power systems
                                               Information
Data Center Power             2009-SP-102                               are adequately tested and coordinate results with ITS–
                                               Technology       I
Outage Incident              December 2009                              Replacement Uninterruptable Power Supply system deployed
                                                 Services
                                                                        and operated as intended during power outages in May and
                                                                        July 2010.
                                                                        Identify and evaluate critical IT hardware and equipment and
                                               Information              ensure that essential replacements are available on site–ITS
Data Center Power             2009-SP-102
                                               Technology     III.1     has identified critical IT hardware and equipment and has
Outage Incident              December 2009
                                                 Services               contracted with the necessary vendors to provide essential
                                                                        replacement parts on site.
                                                                        Improve procedures for restoring and testing IT systems and
                                                                        applications–ITS conducted a post mortem process in order
                                                                        to determine why particular IT systems and applications
                                               Information
Data Center Power             2009-SP-102                               could not be recovered after the August 2009 power outage
                                               Technology     III.2
Outage Incident              December 2009                              in the Madison Data Center. Corrective actions taken and
                                                 Services
                                                                        lessons learned as a result of that process have resulted in
                                                                        improved procedures for restoring and testing IT systems and
                                                                        applications.
                                                                        ITS and the Office of Security and Emergency Preparedness
                                                                        (OSEP) should improve procedures for notifying external users
                                               Information              and Library staff of any disruptions to normal IT operations–
Data Center Power             2009-SP-102
                                               Technology     IV.2      ITS worked in conjunction with OSEP to implement a third
Outage Incident              December 2009
                                                 Services               party repository of Library staff contact information to
                                                                        facilitate improved communications with staff in the event of a
                                                                        service disruption or other emergency situation.




37 • Semiannual Report to the Congress
Table 4B: 	       Significant Recommendations from Previous Semiannual Reports
                  for Which Corrective Action Was Completed During This Period
        Subject            Report No. and      Office      Rec. No.               Summary of Recommendation and Action
                             Issue Date
Human Resources Services (HRS)
                                                                      Reevaluate the process needed for each hiring step, with specific
                                                                      emphasis on eliminating non-value added steps–The Chief of
Human Resources             2009-PA-101      Workforce
                                                             I.b      Staff concurred with HRS Management in disagreeing with
Services                   November 2009    Acquisitions
                                                                      this recommendation, no further action will be taken. See p.
                                                                      40 for our discussion of this disagreement with management.
                                                                      Ensure that staffing specialists are properly trained and
                                                                      knowledgeable about recruitment issues and the hiring process
                                                                      including hiring flexibilities–The WFA Director has issued a
                                                                      guide to the staffing specialists and a newly issued Supervisors
Human Resources             2009-PA-101      Workforce
                                                            I.c.1     Handbook highlights the information. A checklist was
Services                   November 2009    Acquisitions
                                                                      developed to aid in the identification of appropriate flexibilities
                                                                      at the onset of each recruitment effort. Use of the checklist
                                                                      will be reinforced with the Monster Government Solutions
                                                                      rollout.
                                                                      Establish procedures for the point of contacts (POC) to make
                                             Worklife
                            2009-PA-101                               leave bank adjustments in WebTA–HRS has established
Worklife Services Center                     Services       I.a.1
                             June 2009                                procedures for the POCs and timekeepers on when and how
                                             Center
                                                                      to make leave adjustments in WebTA.
                                                                      Provide training and written procedures for timekeepers on
                                             Worklife
                            2009-PA-101                               leave discrepancies–HRS has established a training program
Worklife Services Center                     Services       I.c.1
                             June 2009                                and procedures for timekeepers and POCs on how to resolve
                                             Center
                                                                      leave discrepancies.




                                                                            Left: First Printed Catalog of the Library of Congress, 1802.
                                                                            Right: Excerpt of the Original Library of Congress Book Inven-
                                                                            tory by Thomas Jefferson, 1815. The Library Acquired Jefferson’s
                                                                            Book Collection After the U.S. Capitol Burned in 1814.

                                                                              Semiannual Report to the Congress • 38
            Funds Questioned or Put to Better Use
                Table 5:	        Audits with Recommendations for Better Use of Funds
                Reports…                                                                        Number                Value
                …for which no management decision was made by the start of the period:              -                    -

                …issued during the period:                                                          -                    -
                                                                                  Subtotal          -                    -
                …for which a management decision was made during the reporting period:

                        value of recommendations agreed to by management                           11,2         $8.4-10.7 million

                        value of recommendations not agreed to by management                        -                    -

                …for which no management decision was made by the end of the reporting
                                                                                                    -                    -
                period:

                …for which no management decision was made within six months of
                                                                                                    -                    -
                issuance:




                Table 6:	        Audits with Questioned Costs
                Reports…                                                                        Number                Value

                …for which no management decision was made by the start of the period:              -                   -

                …issued during the period:                                                          -                   -
                                                                                  Subtotal          -                   -
                …for which a management decision was made during the reporting period:

                           value of recommendations agreed to by management                         -                   -

                           value of recommendations not agreed to by management                     -                   -

                …for which no management decision was made by the end of the reporting
                                                                                                   13               $305,000
                period:
                …for which no management decision was made within six months of issu-
                ance:                                                                               -                   -

            1
              The Library Should Reassess the Need for a Book Conveyor System, Report No. 2010-PA-101 (July 2010). See page 10.
            2
              Review of Underutilized Multifunction Devices, Report No. 2010-SP-101 (April 2010). See page 11.
            3
              Review of the Termination Settlement Proposal of Macfadden and Associates, Inc., Report No. 2010-CA-101 (June 2010).
            See page 12.




39 • Semiannual Report to the Congress
Instances Where Information or
Assistance Requests Were Refused
No information or assistance requests were refused during this period.


Status of Recommendations
Without Management Decisions
During the reporting period there were no recommendations more than six months old without management
decisions.

Significant Revised Management Decisions
During the reporting period there were no significant revised management decisions.


Significant Management Decisions
With Which OIG Disagrees
In our report titled HRS has Made Strides in Improving Recruiting and Hiring, but Opportunities for Improvement Still
Exist (2009-PA-101, November 2009), we reached an impasse with management concerning whether a HRS staffing
specialist needed to be involved in the selection panel’s rating process after each of several applicant screening steps.
Management contended that the participation of a staffing specialist in the process helps encourage healthy group
discussion, increase the likelihood that dissenting opinions are considered, prevent panel determinations that are
overly influenced by a supervisor’s or selecting official’s opinions, and protect the Library from litigation predicated
on hiring bias.

In our view, allowing selection panels to resolve their own rating differences and move directly to the next screening
step without staffing specialist involvement would greatly streamline the process. Panels should obtain assistance from
a staffing specialist on an as-needed basis, similar to the practices followed by the Merit Systems Protection Board,
the Office of Personnel Management, and the Equal Employment Opportunity Commission (agencies we believe
represent models in the HR management field). Reducing HRS staffing specialists’ involvement would not endanger
the “content validity” and objective nature of the selection process. The Library’s process involves the application of
standardized questions and ratings for all candidates, making it “content valid,” nondiscriminatory, and objective.

Given this impasse, we invoked the formal audit resolution process. The Audit Resolution Official (the Library’s
Chief of Staff) decided in favor of management, thereby closing this audit recommendation. Nonetheless, we think it
is critical for Library management to be aware of the costs involved with this decision. We estimate that it is costing
the Library an additional $77,070 to $332,980 over a five-year period for a three-member selection panel to meet
with a Human Resources Specialist to record, discuss, and reconcile the applicants’ scores. Therefore, we reiterate our
recommendation and urge the Library to reconsider its decision.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual period. Manage-
ment’s comments on the status of individual recommendations appear in table 4A. Recommendations management
asserts it has implemented during the period appear in table 4B. In order to confirm that recommendations have been
implemented as reported, we perform periodic follow-ups of selected projects.




                                                                          Semiannual Report to the Congress •40
        Organizational Chart


                                                                       Inspector General
                                                                       Karl W. Schornagel
                         Counsel to the IG                             CPA                                        Administrative Officer
                        Judith K. Leader, Esq.                                                                    Sheetal Gupta




                      Assistant Inspector                                                                      Assistant Inspector
                      General for Audits                                                                       General for Investigations
                      Nicholas G. Christopher, Esq., CPA                                                       Kenneth R. Keeler




 Lead Auditor                                    Senior Lead Auditor                       Special Agent                           Special Agent
 John R. Mech                                    Patrick J. Cunningham                     Pamela D. Hawe                          Kimberly J. Taylor
 CPA                                             CIA                                       (Part-time)                             (Part-time)




  Auditor                                        IT Specialist                             Special Agent                           Investigator
 Cornelia E. Jones                               Lawrence D. Olmsted                       Hugh D. Coughlin                        Barbara A. Hennix




  Auditor                                                                                  Management                              Investigator
 Elizabeth Valentin                                                                        Analyst                                 Lynnea A. Schurkamp, Esq.
 CPA, CISA                                                                                 Michael R. Peters




 Auditor
 Walter E. Obando
 CIA, CISA



 Management
 Analyst
 Peter J. TerVeer



 Management
 Analyst
 Jennifer R. Bosch



 Management
 Analyst
 Sarah E. Sullivan




41 • Semiannual Report to the Congress
Inspector General Hotline

    Help Promote Integrity, Economy, and Efficiency

Report Suspected Fraud, Waste, Abuse, or Mismanagement

          Complaints May be Made Anonymously




                     Inspector General

                    Library of Congress
              101 Independence Avenue, S.E.

                           LM-630
               Washington, DC 20540-1060




   Main Telephone Number:           (202) 707-6314

               Fax Number:          (202) 707-6032

 Hotline Telephone Number:          (202) 707-6306

             Hotline Email:         oighotline@loc.gov

                   P.O. Box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
